      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A07100059
                                 14 April 2009


This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
     NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$ 552,552a.
                                                                                                        I(
                                                                                 NSF OIG Form 22b (11/06)
